i
I

OCKLE

2311 Douglas Street CA : E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

Omaha, Nebraska 68102-1214
Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

JEROME D. LEE, et al.,
Petitioners,
Vv.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI and APPENDIX VOLUME II UNDER SEAL in the above entitled case complies
with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 4461 words,
excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 27th day of September, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

he atm, | fonmetn| Aome 0. tla nA? Qudiav- kh Chih

My Comm. Exp. September 5, 2023
Notary Public Affiant 41141

 
